Department of Homeland Security
   Ofﬁce of Inspector General

              Information Sharing With Fusion 

            Centers Has Improved, but Information 

                 System Challenges Remain 





OIG-11-04                                        October 2010
                                                             Office (~f Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                  OCT 26 tOlD

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DRS' information sharing with
state and local fusion centers and the implementation of information technology to
SUppOlt these activities. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                    ~/J/
                                      Frank Deffer
                                      Assistant Inspector General,
                                      Information Technology Audits




.. '
                 ..
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................9 


     DHS’ Approach to Information Sharing With Fusion Centers ......................................9 


     Information Sharing Systems.......................................................................................15 


     Recommendations ........................................................................................................20 


Management Comments and OIG Analysis ......................................................................22 


Appendices
     Appendix A:          Purpose, Scope, and Methodology .........................................................25 

     Appendix B:          Management Comments to the Draft Report .........................................27 

     Appendix C:          Related Reports on Fusion Center Information Sharing ........................32 

     Appendix D:          Major Contributors to This Report .........................................................33 

     Appendix E:          Report Distribution .................................................................................34 


Abbreviations
     CBP                 U.S. Customs and Border Protection
     DHS                 Department of Homeland Security
     DOJ                 Department of Justice
     FBI                 Federal Bureau of Investigation
     GAO                 Government Accountability Office
     HIR                 Homeland Intelligence Report
     HSDN                Homeland Secure Data Network
     HSIN                Homeland Security Information Network
     HSIN-LE             Homeland Security Information Network-Law Enforcement
     HS SLIC             Homeland Security State and Local Intelligence Community of Interest
     I&A                 Office of Intelligence and Analysis
     ICE                 Immigration and Customs Enforcement
     IT                  Information Technology
     NOC                 National Operations Center
     OCIO                Office of the Chief Information Officer
     OIG                 Office of Inspector General
     OMB                 Office of Management and Budget
     OPS                 Office of Operations Coordination and Planning
     SBU                 Sensitive But Unclassified
     TSA                 Transportation Security Administration
Table of Contents/Abbreviations
Figures

  Figure 1: I&A Organization Chart................................................................................ 4 


  Figure 2: OPS Organization Chart ................................................................................ 5 


  Figure 3: Major DHS Information Sharing Systems .................................................... 6 


  Figure 4: HS SLIC State and Local Usage ................................................................. 16 


  Figure 5: HSDN State and Local Usage ..................................................................... 18 

OIG 

Department of Homeland Security
Office of Inspector General
Executive Summary
                        We reviewed the department’s approach to information sharing
                        with state and local fusion centers. Our objectives were to
                        determine (1) the effectiveness of DHS’ strategy, processes, and
                        activities for facilitating information sharing with fusion centers;
                        and (2) the extent to which information technology systems
                        support information sharing between the department and these
                        centers.

                        DHS has made progress in its efforts to improve information
                        sharing with fusion centers. Fusion center personnel indicated that
                        information sharing had improved over time and the information
                        received from the department met their needs primarily due to the
                        deployment of DHS intelligence officers to the centers. As a result
                        of improved information sharing, fusion centers have successfully
                        collaborated with the department during numerous large-scale
                        events and maintained situational awareness after attempted
                        terrorist attacks or other incidents. However, DHS component
                        collaboration in the information sharing process needs
                        improvement, and some intelligence products could better meet
                        state and local needs.

                        In addition, information technology systems do not fully support
                        information sharing between DHS and state and local fusion
                        centers. Specifically, fusion center personnel make limited use of
                        information sharing systems and instead rely on emails for
                        situational awareness and intelligence sharing. Personnel from
                        fusion centers identified challenges with limited system content
                        and usability, as well as the existence of too many federal systems
                        and no ability to conduct comprehensive or simultaneous searches
                        across multiple systems or department databases.

                        We are making recommendations to the Office of Intelligence and
                        Analysis to improve information sharing and system capabilities.
                        In addition, we are making recommendations to the Homeland
                        Security Information Network Program Manager to address
                        challenges identified with this system.




   Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                              Page 1
Background
                          According to The 9/11 Commission Report, a breakdown in
                          information sharing contributed to the collective failure to prevent
                          the attacks.1 To promote greater information sharing and
                          collaboration among federal, state, and local intelligence and law
                          enforcement entities, states and some major urban areas have
                          established a network of fusion centers throughout the country. A
                          fusion center is a collaborative effort of two or more agencies that
                          provide resources, expertise, and information to maximize their
                          ability to detect, prevent, investigate, and respond to criminal and
                          terrorist activity. These centers vary based on state and local needs
                          and involve a range of federal, state, and local entities that collect
                          and analyze terrorism, law enforcement, and other homeland
                          security information. As of May 2010, there were 50 state and 22
                          major urban area fusion centers.

                          Over time, fusion centers have become an integral part of the
                          federal government’s approach to information sharing with state
                          and local partners. DHS and the Department of Justice (DOJ) have
                          worked with fusion centers since their inception. In August 2006,
                          DHS and DOJ, in collaboration with state and local partners,
                          published the Fusion Center Guidelines.2 These guidelines
                          provide assistance to developing fusion centers and were intended
                          to improve consistency among the state and local fusion centers,
                          enhance coordination, strengthen regional and national
                          partnerships, and improve fusion center capabilities. Further, in
                          October 2007, President George W. Bush issued the first National
                          Strategy for Information Sharing, which designated fusion centers
                          as the primary state and local entities for sharing terrorism-related
                          information.3

                          DHS’ Role With Fusion Centers

                          The Homeland Security Act of 2002 assigned DHS the mission to
                          coordinate and share homeland security information across all
                          levels of government, including federal, state, local, and tribal
                          governments and the private sector.4 Since 2004, when states
                          began creating fusion centers, DHS has taken steps to partner with

1
  The 9/11 Commission Report, July 2004.
2
  Fusion Center Guidelines: Developing and Sharing Information and Intelligence in a New Era, August
2006.
3
  National Strategy for Information Sharing: Successes and Challenges in Improving Terrorism-Related 

Information Sharing, October 2007.

4
  Public Law 107-296, Homeland Security Act of 2002. 



    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                 Page 2
                            these centers to accomplish its information sharing mandate. In
                            addition, Congress mandated that DHS support fusion centers in
                            the Implementing Recommendations of the 9/11 Commission Act of
                            2007.5 These same laws also require DHS to implement systems
                            to support information sharing within the department and between
                            federal, state, and local partners. This report addresses the role of
                            two DHS components, the Office of Intelligence and Analysis
                            (I&A) and the Office of Operations Coordination and Planning
                            (OPS), that support fusion center development, share information
                            with those centers, and provide information technology to facilitate
                            information exchange.

                            I&A

                            I&A is the department’s lead component for coordination with
                            fusion centers. The DHS Support Implementation Plan for State
                            and Local Fusion Centers, implemented in June 2006, designated
                            I&A as the executive agent for managing the department’s role in
                            the nationwide fusion center initiative. I&A’s mission is to
                            strengthen the department’s and its partners’ ability to perform
                            their homeland security functions by accessing, integrating,
                            analyzing, and sharing timely and relevant intelligence and
                            information, while protecting the privacy and civil liberties of the
                            people it serves. I&A’s strategic plan contains goals that include
                            strengthening the Nation’s network of fusion centers and building
                            support for and integrating a robust information sharing capability
                            among state, local, territorial, and tribal authorities and the private
                            sector.

                            Within I&A, the State and Local Program Office was directing
                            fusion center activities at the time of our audit. Among its
                            activities to support fusion centers, the State and Local Program
                            Office led the initiative to deploy intelligence officers to fusion
                            centers to facilitate and coordinate information sharing between the
                            centers and DHS. I&A deployed intelligence officers to 53 fusion
                            centers, and also established six regional representatives at fusion
                            centers in the National Capital Region, Northeast, West, Central,
                            Southeast, and Great Lakes. Its goal is to deploy intelligence
                            officers at all 72 fusion centers and establish ten regional
                            representatives by the end of FY 2010. The State and Local
                            Program Office also coordinated the deployment of classified and
                            unclassified systems to support information sharing with fusion



5
    Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of 2007.

       Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                  Page 3
                             centers. Figure 1 shows a simplified version of the organizational
                             structure of I&A.6




                             Figure 1: I&A Organization Chart

                             During our fieldwork, I&A was reorganizing the State and Local
                             Program Office to address the need for a department-wide
                             approach to support and interface with state and major urban area
                             fusion centers. Several I&A working groups, with representatives
                             from other DHS components, created an implementation plan for a
                             new program management office. The plan was approved by
                             Secretary Janet Napolitano in March 2010, and the State and Local
                             Program Office was maintained to lead the department-wide fusion
                             center initiative.

                             OPS

                             Along with I&A, OPS has a primary role in sharing information
                             with fusion centers. OPS’ mission is to integrate DHS and
                             interagency planning and operations coordination in order to
                             prevent, protect, respond to, and recover from terrorist threats or
                             attacks and other manmade or national disasters. OPS is
                             responsible for the National Operations Center (NOC), which
                             serves as the primary national-level hub for domestic situational
                             awareness, information sharing, communications, and operations
                             coordination pertaining to the prevention of terrorist attacks and
                             domestic incident management. Further, the NOC serves as the
                             National Fusion Center to collect and immediately fuse all-source

6
    I&A’s organization chart was in draft during our fieldwork.

       Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                    Page 4
                     information to quickly determine if there is a terrorism nexus. The
                     NOC brings together state fusion center, law enforcement, national
                     intelligence, emergency response, and private sector reporting. It
                     also disseminates homeland security information to appropriate
                     intelligence and law enforcement agencies, other homeland
                     security partners, the DHS leadership, and the White House.
                     Situated within the NOC and staffed by I&A personnel,
                     Intelligence Watch and Warning has the mission to ensure a
                     constant flow of information to homeland security partners at all
                     levels using current, relevant, and actionable intelligence, and to
                     share threat indications and warnings. Figure 2 shows a simplified
                     version of the current OPS organizational structure.




                     Figure 2: OPS Organization Chart

                     Information Sharing Systems

                     DHS has implemented several information technology (IT)
                     systems to support information sharing with fusion centers.
                     Specifically, I&A and OPS use the Homeland Security Information
                     Network (HSIN) and the Homeland Security State and Local
                     Intelligence Community of Interest (HS SLIC) for Sensitive But
                     Unclassified (SBU) information. In addition, the Homeland
                     Secure Data Network (HSDN) provides secret-level classified
                     information to fusion centers that have access. Figure 3 provides
                     current information on these major systems and networks.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 5
                             Figure 3: Major DHS Information Sharing Systems

                             HSIN

                             HSIN was implemented in 2004 and designated as the official
                             system for operational SBU information sharing within the
                             department and with its partners in 2006. The mission of HSIN is
                             to provide a secure and trusted national platform for SBU
                             information sharing and collaboration among federal, state, local,
                             tribal, territorial, private sector, and international partners. HSIN
                             contains several distinct portals for various communities such as
                             emergency management, the private sector, and law enforcement.
                             In addition, several states have implemented HSIN portals to share
                             information within their jurisdictions. This report focuses on the
                             HSIN Law Enforcement (HSIN-LE) portal.7 HSIN-LE had a total
                             of 642 users as of May 2010. As of June 2010, HSIN in its
                             entirety had 50,000 registered users, 23,000 of which were
                             considered active. Since its inception in 2004, DHS has spent
                             $154 million on HSIN. The HSIN program is transitioning from
                             OPS to the DHS Office of the Chief Information Officer (OCIO).

                             HS SLIC

                             I&A began a pilot information sharing portal for intelligence
                             analysts in 2006, which was named HS SLIC in 2007.8 HS SLIC
                             provides a secure information sharing and collaboration portal for
                             federal, state, local, tribal, and territorial users engaged in
                             intelligence analysis. According to the HS SLIC charter, it is a

7
    The scope of our audit was limited to law enforcement and intelligence information sharing.
8
    HS SLIC is a community of interest hosted on I&A’s secure web portal.

       Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                    Page 6
                         “virtual community” of intelligence officers and analysts from the
                         law enforcement, homeland security, and intelligence community
                         who analyze crimes and threats that have a nexus to homeland
                         security. As of May 2010, HS SLIC had a total of 3,409 account
                         holders, 1,844 of which were state and local users. In addition, HS
                         SLIC was used at 56 fusion centers. DHS program management
                         estimated that the total cost of HS SLIC since its inception has
                         been approximately $6 million.

                         HSDN

                         In 2004, DHS created HSDN to be the secret-level classified
                         communications network for the department’s components and
                         partners to share information and collaborate. HSDN provides
                         state and local governments with the ability to access secret-level
                         threat information and to communicate at the secret level with
                         federal law enforcement and intelligence community partners.
                         HSDN is owned and managed jointly by I&A and the DHS OCIO.
                         I&A has prioritized the deployment of HSDN to state and local
                         fusion centers. As of May 2010, HSDN had been deployed to 39
                         fusion centers and had 611 state and local account holders. DHS’
                         goal is to deploy HSDN to all 72 fusion centers by the end of 2011.

                         Prior Reports

                         Prior audit reports have identified challenges pertaining to
                         information sharing with fusion centers and the supporting
                         technology. Specifically, in 2006 we identified challenges with the
                         implementation of HSIN due to, among other things, the need for a
                         clearly defined relationship with existing collaboration systems,
                         inadequate user requirements, and limited system use.9 In 2008,
                         we identified continued challenges with requirements gathering
                         and inadequate metrics to evaluate system use and performance.10
                         Further, in 2008 we reported on DHS’ evolving role with fusion
                         centers and identified challenges providing fusion centers with
                         timely and accurate information.11 Similarly, in 2007 the
                         Government Accountability Office (GAO) reported on fusion
                         center challenges accessing and managing multiple federal
                         information sharing systems.12 Appendix C contains a list of prior


9
  Homeland Security Information Network Could Support Information Sharing More Effectively, OIG-06-
38, June 2006. 

10
   DHS’ Efforts to Improve the Homeland Security Information Network, OIG-09-07, October 2008. 

11
   DHS’ Role in State and Local Fusion Centers Is Evolving, OIG-09-12, December 2008. 

12
   Homeland Security: Federal Efforts Are Helping to Alleviate Some Challenges Encountered by State and

Local Information Fusion Centers, GAO-08-35, October 2007. 


    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                Page 7
                     OIG and GAO reports on information sharing with fusion centers
                     and supporting federal IT systems.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 8
Results of Audit

        DHS’ Approach to Information Sharing With Fusion Centers
                 DHS has made progress in its efforts to improve information sharing with
                 fusion centers. Specifically, personnel from the fusion centers we
                 contacted said that information sharing had improved, the process was
                 effective overall, and the information received from DHS met their needs.
                 Fusion center personnel attributed the improvement primarily to the
                 deployment of I&A intelligence officers to the centers. As a result of
                 improved information sharing, fusion centers have successfully
                 collaborated with DHS during numerous large-scale events and
                 maintained situational awareness after attempted terrorist attacks or other
                 incidents.

                 Despite progress toward more effective information sharing, several
                 challenges remain. Specifically, DHS component collaboration in the
                 information sharing process needs improvement, certain unfinished
                 intelligence products could be timelier, and fusion centers could be offered
                 more opportunities to contribute to finished intelligence products.

                          Information Sharing Has Improved

                          The Homeland Security Act of 2002 requires DHS to share
                          information with state and local partners, and the Implementing
                          Recommendations of the 9/11 Commission Act of 2007 requires
                          DHS to support fusion centers in fulfilling this mission.13 In
                          addition, the National Strategy for Information Sharing designates
                          fusion centers as the focal point to ensure that state and local
                          governments have access to timely and actionable information and
                          intelligence.14

                          We interviewed fusion center personnel, including fusion center
                          directors and other leadership, I&A representatives, and state and
                          local analysts at 15 fusion centers. The majority of those
                          interviewed said that information sharing had improved. For
                          example, personnel at several fusion centers said that in the past,
                          information was not always timely and relevant. Personnel at one
                          fusion center, however, said that they now receive NOC updates
                          every few minutes when incidents of national significance occur.


13
   Public Law 107-296, Homeland Security Act of 2002. Public Law 110-53, Implementing 

Recommendations of the 9/11 Commission Act of 2007. 

14
   National Strategy for Information Sharing: Successes and Challenges in Improving Terrorism-Related 

Information Sharing, October 2007.


     Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                 Page 9
                     Fusion center personnel also said that information sharing was
                     currently effective. For example, personnel at one fusion center
                     said that information was shared effectively when a plane that had
                     possibly been hijacked was heading toward that fusion center’s
                     state. The NOC called the fusion center to inform them of the
                     situation, and the fusion center was able to work with state partners
                     to manage the situation, which turned out to be a false alarm.

                     In addition, fusion center personnel generally felt that the
                     information they received from DHS met their needs. For
                     example, personnel at one fusion center said that DHS previously
                     took a long time to produce lengthy reports that did not provide a
                     lot of value. For instance, when major incidents occurred, such as
                     the London bombings in July 2005, it could take several months
                     for DHS to issue a report on the incidents. Personnel at this center
                     said that information is now much timelier.

                     DHS has improved information sharing by deploying I&A
                     intelligence officers to fusion centers. Fusion center personnel said
                     that the I&A intelligence officers provided a critical point of
                     contact to facilitate communication with DHS, and the intelligence
                     officers also filled prior information sharing gaps. For example,
                     personnel at one fusion center said that its I&A intelligence officer
                     provided timely and accurate information after the attempted
                     bombing of Northwest Airlines Flight 253 on December 25, 2009,
                     which they otherwise would not have received. Personnel at
                     another fusion center said that its I&A intelligence officer was
                     particularly helpful when the Guardians of the Free Republic
                     began sending threatening letters to governors across the country.
                     In this case, the I&A intelligence officer provided the fusion center
                     with information on the experiences of other states, which allowed
                     the fusion center to alert state officials early on what to expect and
                     to seek assistance from the proper authorities. As of the end of our
                     fieldwork, I&A intelligence officers had been deployed to 53 of
                     the 72 fusion centers. The remaining 19 fusion centers relied on
                     one of the six I&A regional directors.

                     In addition to the deployment of I&A intelligence officers, several
                     other DHS initiatives have contributed to information sharing
                     improvements. Specifically, in 2009 I&A developed and provided
                     the fusion centers an extensive list that identified the enduring
                     intelligence and information needs of the department and its
                     components. Fusion center personnel said that this list improved
                     their understanding of the types of information that they should
                     provide to DHS. To further improve the process, I&A is obtaining


Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 10
                     information requirements from all state and local fusion centers to
                     enable DHS to better understand each center’s information needs.

                     I&A and the NOC have also implemented a state and local support
                     request process. Using this process, fusion centers can submit all
                     requests for information directly to the NOC, which then forwards
                     them to the office or component best suited to respond to the
                     requests. Although personnel at some fusion centers said that the
                     response time for some requests has been slow, they believe that
                     the process provides accountability and has been effective. They
                     also said that DHS provided them with adequate responses to their
                     information requests.

                     As a result of improved information sharing, fusion centers have
                     successfully collaborated with DHS during large-scale events. For
                     example, fusion centers coordinated information sharing for both
                     the Republican and Democratic National Conventions in 2008. In
                     addition, the Washington, DC, and other area fusion centers
                     provided timely and relevant information during the 2009
                     presidential inauguration, and they worked successfully with DHS
                     and the Federal Bureau of Investigation (FBI) to coordinate
                     operational intelligence activities and update threat information.

                     In addition, improved information sharing has helped maintain
                     situational awareness after attempted terrorist attacks or other
                     incidents. Specifically, one fusion center director said that if the
                     attempted bombing in Times Square had occurred 3 years ago,
                     personnel at the fusion center would have had to make calls to
                     obtain information. Now, fusion centers no longer have to pull
                     information, as DHS is proactive in pushing information to them.
                     Similarly, personnel at several fusion centers said that DHS
                     provided helpful information after an individual crashed a plane
                     into an Internal Revenue Service building in Austin, TX. I&A
                     developed an unclassified intelligence product called a “Snapshot”
                     quickly after the incident to provide key facts about the incident to
                     fusion centers.

                     DHS’ improved ability to share information with fusion centers
                     has not only kept state and local officials better informed during
                     times of crisis, it has also assisted investigations. For example,
                     officials at one fusion center said that they were informed of a
                     suspicious shipment of chemical processing equipment from a
                     private business in the United States to a buyer in the United
                     Kingdom. Fusion center analysts passed this information to DHS,
                     which then alerted the appropriate officials in the United Kingdom,
                     leading to an investigation. Officials at another fusion center

Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 11
                     informed DHS about a string of propane thefts, which led DHS to
                     produce a national intelligence product to alert every state to this
                     potential threat.

                     Information Sharing Challenges

                     Despite the overall improvements, DHS continues to face several
                     information sharing challenges. Specifically, DHS component
                     collaboration in the information sharing process needs
                     improvement. In addition, unfinished intelligence products have
                     not always been timely, and the production process for finished
                     intelligence products should allow for more fusion center
                     collaboration.

                     Component Collaboration

                     DHS component collaboration in the information sharing process
                     needs improvement. Specifically, although fusion center access to
                     intelligence and situational awareness through I&A and the NOC
                     has improved, access to information held by other operational
                     components of the department was varied. Representatives from
                     all of the operational components within DHS are assigned to the
                     NOC to act as a single point of contact; however, many fusion
                     center officials did not rely on this process. Several fusion center
                     officials said that component representatives were reluctant to
                     share information with state and local personnel.

                     Instead of going through the NOC, fusion center personnel said
                     that they rely on their own local points of contact at DHS
                     component field offices. Reliance on personal contacts rather than
                     the NOC has led to varying degrees of effectiveness for fusion
                     centers attempting to obtain information from components. Fusion
                     center officials were able to acquire information from components
                     where they had strong local points of contact, but obtaining
                     information from components where no contacts existed was
                     difficult. For example, officials at one fusion center were able to
                     effectively share information with Customs and Border Protection
                     (CBP) and the Transportation Security Administration (TSA), with
                     which they had strong liaisons; however, this center did not have
                     effective sharing with Immigration and Customs Enforcement
                     (ICE). Conversely, personnel at another center had good
                     information sharing with liaisons at ICE, but had difficulty
                     obtaining information from TSA.

                     DHS is working to improve information sharing between fusion
                     centers and DHS components. Specifically, DHS is deploying

Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 12
                     CBP and ICE representatives to some fusion centers. Additionally,
                     the State and Local Program Office has undertaken an initiative to
                     improve coordination among the different DHS entities and fusion
                     centers. One fusion center official we spoke with called this
                     initiative an important improvement to get all the DHS
                     components working together. The official added that the
                     department-wide approach will help improve relations between
                     fusion centers and components that do not completely understand
                     the role of fusion centers.

                     Improvements to Intelligence Products

                     Unfinished intelligence products are not always timely. I&A
                     analysts produce unfinished intelligence reports, called Homeland
                     Intelligence Reports (HIRs), that contain information that has not
                     yet been fully evaluated. For example, HIRs are used to share
                     information quickly with state and local personnel on suspicious
                     activities prior to being fully vetted. However, an I&A quarterly
                     performance report on the fusion center support request process
                     shows that 144 HIRs were overdue as of March 2010. Of the 144
                     overdue reports, 93 were more than 90 days behind schedule.
                     Fusion center personnel identified the lengthy DHS headquarters
                     review process required prior to dissemination as the main cause of
                     delays.

                     As a result, the information contained in the HIRs may no longer
                     be relevant by the time it reaches the fusion centers. For example,
                     one fusion center official said that its center received an HIR with
                     information about a suspicious individual that was 6 months old.
                     Another fusion center official said that it can take 9 to 10 months
                     for the HIRs it produces to be disseminated, resulting in delayed
                     access to this information for other fusion centers. Such delays
                     have led some officials to avoid the DHS process and rely on the
                     FBI to share unfinished intelligence information.

                     In addition, I&A did not always provide fusion centers adequate
                     opportunity to contribute to finished intelligence products. I&A
                     analysts produce numerous intelligence products that are fully
                     evaluated before distribution and are considered finished. For
                     example, I&A analysts produce Homeland Security Assessments
                     that provide in-depth analysis on a specific topic or threat, which are
                     then provided to state and local personnel. However, officials at
                     several fusion centers said that I&A did not allot enough time for
                     fusion center analysts to contribute to these intelligence products.
                     For example, one fusion center analyst said that the fusion center
                     was given only 1 or 2 days to contribute to DHS’ intelligence

Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 13
                     products. Another fusion center official said that its fusion center
                     was only given the opportunity to contribute to finished intelligence
                     products if the center generated the product. Additionally, one
                     fusion center official said that even though the center had
                     information to contribute, DHS produced a finished intelligence
                     product without providing the center the opportunity to include its
                     information. An I&A official said that although a formal process to
                     involve state and local analysts was not in place, one was being
                     initiated. Without such a process in place, information that could
                     have been provided by state and local officials may have been
                     excluded.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 14
           Information Sharing Systems
                   IT systems do not fully support information sharing between DHS and
                   state and local fusion centers. Although DHS has implemented HSIN-LE
                   and HS SLIC to share SBU information with fusion centers, and HSDN to
                   share secret-level information, fusion center personnel make limited use of
                   these systems. Instead, fusion center personnel rely on email for
                   situational awareness and intelligence sharing. Fusion center personnel
                   indicated that HS SLIC was difficult to navigate and search, and HSDN
                   and HSIN-LE had limited useful content. In addition, fusion center
                   personnel indicated that there were too many federal systems, and no
                   ability to conduct comprehensive or simultaneous searches across multiple
                   systems or DHS databases. Email may meet fusion centers’ need for
                   situational awareness; however, collaboration across state, local, and
                   federal partners to “connect the dots” to prevent and deter threats remains
                   a challenge without effective information sharing IT systems.

                            Limited System Use

                            The Homeland Security Act of 2002 requires DHS to establish a
                            secure communications and IT infrastructure that allows federal,
                            state, and local governments and other specified groups to access,
                            receive, and analyze data, and to disseminate information acquired
                            by DHS as appropriate.15 In addition, the Implementing
                            Recommendations of the 9/11 Commission Act of 2007 requires the
                            Under Secretary for Intelligence and Analysis to establish a
                            comprehensive IT network architecture to promote information
                            sharing among intelligence and other personnel within the
                            department.16

                            Despite DHS’ efforts to implement IT systems, email and phone
                            calls remain the primary methods for sharing information with
                            fusion centers. NOC officials said that when an event of national
                            significance occurs, it sends information to fusion centers and
                            other stakeholders using email distribution lists. Personnel said
                            that no one system functions as a “dashboard” that fusion centers
                            can continuously monitor to receive real-time, constant notices and
                            information. According to NOC officials, email is the one tool that
                            stakeholders reliably monitor. Consequently, if information is not
                            sent out via email, it may not reach all intended recipients.
                            Further, email is available to personnel who are away from a
                            computer and have access to only a handheld device, such as a

15
     Public Law 107-296, Homeland Security Act of 2002. 

16
     Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of 2007. 


       Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                  Page 15
                           BlackBerry. Fusion center personnel confirmed that email was the
                           main tool for sharing information with DHS.

                           Also, fusion center personnel make limited use of DHS IT systems
                           for sharing information. Specifically, personnel from several
                           fusion centers said that they logged into HS SLIC only
                           occasionally for unclassified information sharing. Figure 4
                           provides data on HS SLIC use from January 2009 to May 2010.17

                                           100%

                                           90%                                   49% logon each
                                           80%
                                                                                month on average
                                           70%
                            Active Users




                                           60%

                                           50%

                                           40%

                                           30%

                                           20%

                                           10%

                                            0%
                                            Se 9
                                                   09




                                            M 0
                                                  09




                                            De 9
                                            No 9
                                            Au 9




                                                    0
                                            Fe 9




                                            Fe 0
                                            M 9
                                                    9




                                            O 9




                                            Ja 9



                                            M 0
                                                    0
                                            Ju 9




                                                   0




                                                   1
                                                  0
                                                 -0
                                                l-0




                                                 -1
                                                  0




                                                  1
                                                  0




                                                  0
                                                 -0
                                                  0

                                                 -0




                                                  1

                                                 -1
                                               g-




                                               v-
                                                r-




                                                r-
                                               n-




                                               p-




                                               c-
                                               n-




                                               n-
                                               b-




                                               b-
                                              ct
                                              ay




                                              ay
                                              ar




                                              ar
                                             Ju
                                            Ap




                                            Ap
                                            Ja




                                            M




                                                               Mo
                                                               Mon
                                                                 nths

                           Figure 4: HS SLIC State and Local Usage

                           On average, from January 2009 to May 2010, only 49% of state
                           and local account holders logged in each month. About a third of
                           all inactive HS SLIC account holders, including headquarters and
                           state and local accounts, have been so for 5 months or more. Users
                           that logged in only did so an average of 4.5 times a month. In
                           addition, usage is heavily skewed toward a small number of states
                           that use the system much more than others. Specifically, in May
                           2010, five states accounted for 44% of state logons.

                           Although fusion center personnel who used HS SLIC said that
                           some of the system’s functionality was beneficial, they said that it
                           was difficult to search and find products and information.
                           Specifically, personnel from several fusion centers said that the
                           document library is difficult to navigate and the search tool is not
                           effective. For example, fusion center personnel can set up alerts

17
  The total number of state and local accounts listed in the chart range from 1,307 on January 31, 2009 to
1,844 on May 31, 2010.

     Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                  Page 16
                     on HS SLIC to receive email notifications when something is
                     posted that meets defined alert criteria. However, personnel said
                     that when they received the notifications they often could not
                     locate the document due to the poor organization of the library and
                     they could not search for the document because the search tool was
                     ineffective. As a result, fusion center analysts said that they
                     stopped logging into the system when they received an alert.

                     Similarly, personnel from fusion centers did not use HSIN-LE for
                     sharing SBU law enforcement information regularly. According to
                     HSIN program office data, only 15 of the 72 fusion centers use
                     HSIN-LE. In addition, the number of active HSIN-LE account
                     holders is limited. In July 2009, headquarters personnel conducted
                     a user cleanup of HSIN-LE to close accounts that had been
                     inactive for more than 180 days. The cleanup reduced the number
                     of accounts from approximately 7,000 to 1,000. HSIN-LE had a
                     total of 642 users as of May 2010. Personnel from most of the
                     fusion centers we contacted said that they did not use HSIN-LE
                     because of the limited content available via the system. Several
                     fusion center analysts said that they stopped logging in because
                     information was not posted regularly in the past. The HSIN
                     program has since started working to understand the needs of the
                     HSIN-LE community to increase system use. For example,
                     program personnel conducted a survey to obtain user feedback on
                     HSIN-LE user needs.

                     Fusion centers with access to HSDN for secret-level information
                     also do not use their access often. As of May 2010, 39 of the 72
                     fusion centers had access to HSDN, with a total of 611 state and
                     local account holders. Of the 611 account holders, 197 had never
                     logged into the system. Those that did log in did so infrequently.
                     On average, from January 2009 to May 2010, state and local
                     account holders logged in only 1.5 times each month. Figure 5
                     shows the percentage of inactive account holders as of May 2010.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 17
                          Figure 5: HSDN State and Local Usage

                          Although fusion center personnel who used HSDN said that it
                          improved their access to secret information, many said that they
                          did not log in often because of the limited content available.
                          Fusion center personnel found the secure video teleconference,
                          access to the National Counterterrorism Center’s classified web
                          portal, and secure email useful. However, users said that many of
                          the links to additional information sources did not work, and state
                          and local personnel were not given enough access to classified
                          websites. As a result, some fusion center personnel rely on other
                          means, such as FBI systems, to access secret-level information.

                          Inadequate System Integration

                          In addition to limitations specific to the systems, personnel from
                          10 of the 15 fusion centers we contacted said that there were too
                          many federal information sharing systems that are not integrated.
                          GAO and OIG reports from as early as 2006 have identified the
                          inadequate integration between HSIN and DOJ systems, including
                          the Regional Information Sharing System and Law Enforcement
                          Online.18 Fusion center personnel said that information was still
                          not integrated and often redundant across systems, and users must
                          maintain separate user names and passwords for each system.

                          Further, the two primary portals within DHS for sharing SBU
                          information with fusion centers—HSIN and HS SLIC—are not
                          integrated. The HS SLIC community used HSIN portal services

18
  Homeland Security Information Network Could Support Information Sharing More Effectively, OIG-06-
38, June 2006. Information Technology: Numerous Federal Networks Used to Support Homeland Security
Need to be Better Coordinated with Key State and Local Information-Sharing Initiatives, GAO-07-455,
April 2007.

     Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                                Page 18
                     from March to September 2006 but became concerned about the
                     lack of critical capabilities and security within the HSIN portal
                     environment. To address these concerns, I&A leadership developed
                     a separate platform for HS SLIC to provide stronger security with
                     two-factor authentication, as well as other functionalities such as
                     secure messaging. As a result, users must maintain separate
                     accounts, and information cannot easily be shared across systems.
                     For example, if I&A personnel decide that a product from HS SLIC
                     should be posted to HSIN, the product is typically emailed to the
                     Senior Watch Officer at the NOC with a request that it be posted to
                     the appropriate HSIN portals. DHS senior leadership has
                     emphasized the need to consolidate unclassified information sharing
                     portals within the department, and HS SLIC is scheduled to migrate
                     to HSIN Next Generation, a DHS initiative to update HSIN, by the
                     end of 2011.

                     Additionally, personnel from several fusion centers said that the
                     inability to conduct a comprehensive search across systems and
                     databases is a major challenge. Currently, users must log into each
                     system separately when searching for information. Personnel at
                     several fusion centers said that finding time to access multiple
                     systems is a challenge. These analysts said that it would be ideal
                     to have one system that would allow the user, based on his or her
                     access rights, to search several systems at once.

                     According to system program officials, HSIN Next Generation
                     contains plans to address some of these challenges. Specifically,
                     there are plans to include a single sign-on capability to access both
                     HSIN and other DHS systems, as well as other portals such as the
                     DOJ’s Law Enforcement Online and Regional Information Sharing
                     System. In addition, HSIN program personnel said that HSIN
                     Next Generation can provide comprehensive search capabilities
                     across systems, and system program officials are working with the
                     DHS CIO and components to expand the capability.

                     HSIN Next Generation development and deployment has
                     encountered delays and faces challenges. Transition to HSIN Next
                     Generation was initially scheduled for May 2009; however, as of
                     the end of our fieldwork, the transition had been delayed until
                     December 2010. Due to performance concerns, OMB halted
                     development, modernization, and enhancement funding for HSIN
                     beyond 2010, and identified several corrective actions. HSIN
                     program officials plan to meet with OMB in October 2010 to
                     review progress on the actions required to improve the program.



Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 19
            Recommendations
            We recommend that the Director of the State and Local Program Office
            within the Office of Intelligence and Analysis:

                     Recommendation #1: Deploy I&A representatives to remaining
                     fusion centers, as applicable.

                     Recommendation #2: Facilitate, to the greatest extent possible, the
                     deployment of component representatives to fusion centers as
                     necessary.

            We recommend that the Deputy Under Secretary for Analysis and the
            Deputy Under Secretary for Enterprise and Mission Support within the
            Office of Intelligence and Analysis:

                     Recommendation #3: Coordinate with the NOC to improve fusion
                     center access to component information.

            We recommend that the Deputy Under Secretary for Analysis within the
            Office of Intelligence and Analysis:

                     Recommendation #4: Streamline the review process for
                     unfinished intelligence products.

            We recommend that the Deputy Under Secretary for Enterprise and
            Mission Support within the Office of Intelligence and Analysis:

                     Recommendation #5: Implement a process to include fusion
                     center input for finished intelligence products.

                     Recommendation #6: Coordinate with HSIN program
                     management to integrate HS SLIC with HSIN Next Generation
                     contingent on satisfaction of security and other user requirements
                     to allow for single sign-on and the ability to share data across
                     systems easily.

                     Recommendation #7: Improve the organization and search
                     capability within those systems used by the state and local
                     intelligence community and define a strategy to encourage system
                     usage.

                     Recommendation #8: Complete installation of HSDN to all
                     fusion centers and improve the availability of timely and relevant
                     content through the system.


Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 20
            We recommend that the HSIN Program Manager:

                     Recommendation #9: Evaluate and validate the mission need for
                     the HSIN-LE portal within the environment of existing federal law
                     enforcement information sharing portals.

                     Recommendation #10: Pursue single sign-on and comprehensive
                     search capabilities to improve integration of federal SBU systems
                     and DHS databases available to fusion centers.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 21
Management Comments and OIG Analysis
                       We obtained written comments on a draft of this report from the
                       Deputy Under Secretary for Plans, Policy, and Performance
                       Management within I&A, and the Acting Director for OPS. We
                       have included a copy of the comments in their entirety in
                       Appendix B.

                       In their comments, the Deputy Under Secretary for Plans, Policy,
                       and Performance Management within I&A, and the Acting
                       Director for OPS concurred with our recommendations.
                       Additionally, they provided details on steps being taken to address
                       specific findings and recommendations in the report. We have
                       reviewed management’s comments and provided an evaluation of
                       the issues outlined in the comments below.

                       In response to recommendation one, the Deputy Under Secretary
                       concurred and stated that I&A continues to deploy intelligence
                       officers and regional directors to fusion centers around the country,
                       and is on track to have a deployed officer in every fusion center by
                       the end of FY 2011. Once completed, this action will satisfy our
                       recommendation.

                       Responding to recommendations two and three, the Deputy Under
                       Secretary concurred and stated that I&A recognized the importance
                       of the recommendations. The Deputy Under Secretary suggested
                       directing recommendation two to OPS as well as the State and
                       Local Program Office, and minor reformatting of the language.
                       We agreed with the suggested change in language. We did not
                       redirect the recommendation to OPS because OPS had already
                       completed its review of our recommendations. Additionally, we
                       agreed with the Deputy Under Secretary’s request to assign
                       recommendation three to both the Deputy Under Secretary for
                       Analysis and the Deputy Under Secretary for Enterprise and
                       Mission Support within I&A. We look forward to learning about
                       progress toward addressing these recommendations.

                       In response to recommendations four and five, the Deputy Under
                       Secretary concurred with the recommendations. We agreed with
                       the Deputy Under Secretary’s request to assign recommendation
                       four to the Deputy Under Secretary for Analysis within I&A, and
                       to assign recommendation five to the Deputy Under Secretary for
                       Enterprise Mission Support for I&A. We look forward to learning
                       about progress toward addressing these recommendations.



  Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                             Page 22

                     In response to recommendation six, the Deputy Under Secretary
                     concurred and stated that the HSIN Program Management Office is
                     working closely with the HS SLIC community to assess the ability
                     of HSIN to meet the requirements of this community for a web
                     portal, including two-factor authentication, single sign-on, and
                     secure messaging. The Deputy Under Secretary, however,
                     reported that a delay has occurred in meeting the objective of
                     migration into HSIN due to the reassessment underway by the
                     OCIO of the HSIN program, including an analysis of alternatives
                     regarding a technology platform. The HS SLIC requirements will
                     be incorporated into the set of requirements for the HSIN Next
                     Generation platform. The Under Secretary stated that the HSIN
                     Mission Operations Committee will review all the requirements,
                     including those specific to HS SLIC users, and assist the program
                     in prioritization of the requirements. Once the HS SLIC
                     community requirements have been implemented, the migration to
                     HSIN will begin. As requested, we assigned this recommendation
                     to the Deputy Under Secretary for Enterprise Mission Support.
                     We believe that such efforts are good steps toward addressing our
                     recommendation and look forward to learning more about
                     continued progress and improvements in the future.

                     The Deputy Under Secretary concurred with recommendations
                     seven and eight. Responding to recommendation eight, the Deputy
                     Under Secretary stated that I&A, through the National Security
                     Systems Program, is working to deploy HSDN to all 72 recognized
                     fusion centers. Additionally, the Deputy Under Secretary said that
                     I&A is working with the Department of Defense to improve access
                     to classified resources for State and Local users. We recognize this
                     action as a positive step toward addressing recommendation eight.

                     Responding to recommendation nine (recommendation seven of
                     the draft report), the Acting Director of OPS concurred and stated
                     that HSIN-LE supports DHS’ requirement to share Law
                     Enforcement Sensitive information via a secure platform. In
                     addition, the Acting Director said that HSIN-LE caters to a user
                     base that is distinct from other law enforcement information
                     sharing systems. However, the low numbers of active HSIN-LE
                     user accounts and feedback from fusion center personnel showed
                     that HSIN-LE had a limited number of users and useful content.
                     We recognize the requirement for HSIN-LE and the steps that the
                     HSIN program is taking to define and build the HSIN-LE user
                     community. We look forward to learning more about continued
                     progress and improvements in the future.



Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 23
                     In response to recommendation ten (recommendation eight of the
                     draft report), the Acting Director concurred and said that the HSIN
                     Next Generation platform, scheduled for release beginning in FY
                     2011, will incorporate a federated search capability and follow the
                     Global Federated Identity and Privilege Management (GFIPM)
                     standards. These standards will apply to the HSIN-LE Community
                     of Interest, giving it the capability to conduct searches on Law
                     Enforcement Online, Regional Information Sharing Systems, and
                     other law enforcement information sharing portals. The HSIN
                     program conducted a pilot test to integrate with the Department of
                     Justice's Regional Information Sharing Systems. The initial phase
                     of HSIN Next Generation GFIPM implementation has been
                     completed. We believe that such efforts are good steps toward
                     addressing our recommendation and look forward to learning more
                     about continued progress and improvements in the future.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 24
Appendix A
Purpose, Scope, and Methodology


                         We conducted an audit of DHS’ approach to information sharing
                         with state and local fusion centers. Our objectives were to
                         determine (1) the effectiveness of DHS’ strategy, processes, and
                         activities for facilitating information sharing with state and local
                         fusion centers; and (2) the extent to which IT systems support
                         information sharing between DHS and these centers. Our audit
                         focused on law enforcement and intelligence information sharing
                         and did not address the requirements of the emergency
                         management and private sector.

                         We researched and reviewed federal laws and executive guidance
                         related to DHS’ support of information sharing with fusion centers.
                         We reviewed recent GAO and OIG reports to identify prior
                         findings and recommendations. Using this information, we
                         designed a data collection approach for our review, consisting of
                         focused interviews and document analysis.

                         We conducted interviews at DHS headquarters with both I&A and
                         OPS personnel. At headquarters, we interviewed senior I&A and
                         OPS leaders, including system owners and division directors, to
                         discuss their roles and responsibilities related to DHS’ support of
                         state and local fusion centers. We interviewed NOC personnel to
                         learn about the current processes for sharing information with fusion
                         centers. We also collected numerous documents from these offices
                         about DHS accomplishments, current initiatives, and future plans
                         to support fusion centers.

                         We selected 15 fusion centers to contact based on a number of
                         factors, including risk prioritization, geographic location, and
                         inclusion of both state and major urban area centers. We visited
                         seven fusion centers and conducted telephone conferences at the
                         remaining eight centers. We interviewed a range of fusion center
                         personnel, including the centers’ leadership, I&A representatives,
                         and state and local analysts, to obtain feedback on information
                         sharing with DHS and the supporting technology. We sought to
                         evaluate existing practices for information sharing in the field and
                         the extent to which headquarters provides tools for field users.
                         Where possible, we obtained reports and other materials to support
                         the information provided during the interviews. Additionally, we
                         visited the Battle Lab in Herndon, VA, which was working on a
                         federated single query search system.




    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                               Page 25
                     We conducted our audit from March to June 2010 at DHS
                     headquarters in Washington, DC, and at the following fusion
                     center field locations:

                         •   Atlanta, GA
                         •   Austin, TX
                         •   Los Angeles, CA
                         •   Phoenix, AZ
                         •   Richmond, VA
                         •   Sacramento, CA
                         •   Washington, DC

                     We conducted telephone conferences with the following fusion
                     center locations:

                         •   Columbus, OH
                         •   East Lansing, MI
                         •   Fairfax, VA
                         •   Latham, NY
                         •   Maynard, MA
                         •   Minneapolis, MN
                         •   Providence, RI
                         •   Tallahassee, FL

                     We performed our work pursuant to the Inspector General Act of
                     1978, as amended, and according to generally accepted
                     government auditing standards. Those standards require that we
                     plan and perform the audit to obtain sufficient appropriate
                     evidence to provide a reasonable basis for our findings and
                     conclusions based on our audit objectives. We believe that the
                     evidence obtained provides a reasonable basis for our findings and
                     conclusions, based on our audit objectives.

                     The principal OIG points of contact for this audit are Frank Deffer,
                     Assistant Inspector General for Information Technology Audits,
                     and Richard Harsche, Director of Information Management. Major
                     OIG contributors to the audit are identified in Appendix D.




Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                           Page 26
         Appendix B
         Management Comments on the Draft Report




Corresponds to
recommendations
#2 and #3 of the
final report




              Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                                         Page 27

Corresponds to
recommendations
#4 and #5 of the
final report




Corresponds to
recommendation
#6 of the final
report




Corresponds to
recommendation
#7 of the final
report




              Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                                         Page 28

Corresponds to
recommendation
#8 of the final
report




              Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                                         Page 29

Corresponds to
recommendation
#9 of the final
report




                  Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                                             Page 30

Corresponds to
recommendation
#10 of the final
report




                   Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain 


                                                              Page 31

Appendix C
Related Reports on Fusion Center Information Sharing


                         DHS OIG Reports

                         DHS’ Efforts to Develop the Homeland Secure Data Network,
                         OIG-05-19, April 2005.

                         Homeland Security Information Network Could Support
                         Information Sharing More Efficiently, OIG-06-38, June 2006.

                         DHS’ Efforts to Improve the Homeland Security Information
                         Network, OIG-09-07, October 2008.

                         DHS’ Role in State and Local Fusion Centers Is Evolving, OIG-
                         09-12, December 2008.

                         Information Sharing at the National Operations Center,
                         (Redacted) OIG-10-15, November 2009.

                         GAO Reports

                         Information Technology: Numerous Federal Networks Used to
                         Support Homeland Security Need to Be Better Coordinated with
                         Key State and Local Information-Sharing Initiatives, GAO-07-455,
                         April 2007.

                         Homeland Security: Federal Efforts Are Helping to Alleviate
                         Some Challenges Encountered by State and Local Information
                         Fusion Centers, GAO-08-35, October 2007.

                         Information Sharing Environment: Definition of the Results to Be
                         Achieved in Improving Terrorism-Related Information Sharing Is
                         Needed to Guide Implementation and Assess Progress, GAO-08-
                         492, June 2008.

                         Information Sharing: Federal Agencies Are Sharing Border and
                         Terrorism Information with Local and Tribal Law Enforcement
                         Agencies, but Additional Efforts Are Needed, GAO-10-41,
                         December 2009.




    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                               Page 32
Appendix D
Major Contributors to This Report



                         Information Management Division

                         Richard Harsche, Director
                         Steven Staats, Audit Manager
                         Craig Adelman, Auditor
                         Anna Hamlin, Auditor
                         Steve Durst, Referencer




    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                               Page 33
Appendix E
Report Distribution



                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         Under Secretary for Intelligence and Analysis
                         Audit Liaison for I&A
                         Audit Liaison for OPS

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




    Information Sharing With Fusion Centers Has Improved, but Information System Challenges Remain

                                               Page 34
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
